USCA11 Case: 20-11642

Date Filed: 07/22/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11642-G

JASON PIERCE,
Petitioner-Appellant,
versus
WARDEN,
Respondent-Appellee.

Appeal from the United States District Court
for the Northern District of Georgia

ORDER:
Appellant’s motion for a certificate of appealability is DENIED because he has failed to
make a substantial showing of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2).
/s/ Britt C. Grant
UNITED STATES CIRCUIT JUDGE

USCA11 Case: 20-11642

Date Filed: 10/02/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11642-G

JASON PIERCE,
Petitioner-Appellant,
versus
WARDEN,
Respondent-Appellee.

Appeal from the United States District Court
for the Northern District of Georgia
Before: GRANT and LUCK, Circuit Judges.
BY THE COURT:
Jason Pierce has filed a motion for reconsideration, pursuant to 11th Cir. R. 27-2 and
22-1(c), of this Court’s July 22, 2020, order denying a certificate of appealability. Upon review,
Pierce’s motion for reconsideration is DENIED because he has offered no new evidence or
arguments of merit to warrant relief.

Case l:19-cv-03410-JPB Document 26 Filed 04/13/20 Page 1 of 12

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
JASON PIERCE,
Petitioner,

CIVIL ACTION NO.

v.

1:19-C V-03410-JPB

NATHAN BROOKS, Warden,
Respondent.
ORDER
This matter comes before the Court on the Magistrate Judge’s Final Report
and Recommendation [Doc. 18] and Jason Pierce’s (“Petitioner”) Second Motion
to Amend His Complaint [Doc. 23]. This Court finds as follows:
PROCEDURAL HISTORY
On July 26, 2019, Petitioner, who is currently serving two consecutive terms
of life without parole and a consecutive term of twenty-five years, filed a Petition
for Writ of Habeas Corpus under 28 U.S.C. § 2254 to challenge his convictions in
Fulton County Superior Court for two counts of murder, one count of aggravated
assault and one count of possession of a firearm by a convicted felon. [Doc. 1]. In
his § 2254 petition, as amended, Petitioner raises the following nine claims for
relief: (1) trial counsel provided him ineffective assistance by failing to (a) review
discovery, (b) investigate a viable mitigation defense, (c) investigate a purported

Case l:19-cv-03410-JPB Document 26 Filed 04/13/20 Page 2 of 12

Brady v. Maryland, 373 U.S. 83 (1963) violation, and (d) interview witnesses
before advising Petitioner to not withdraw his guilty plea and agree to be
resentenced; (2) trial counsel was ineffective for failing to explain the motion to
reinstate the guilty pleas after having legally withdrawn them, resulting in
Petitioner’s unknowing and involuntary agreement to not withdraw the pleas and
be resentenced; (3) the trial court violated Petitioner’s constitutional rights when it
found the existence of aggravating circumstances to sentence him to life without
parole without notifying him of his right to have a jury make that determination;
(4) the trial court erred in granting defense counsel’s motion to vacate Petitioner’s
withdrawn guilty pleas and in reinstating his murder sentences because the motion
to vacate was filed outside the term of court; (5) both trial counsel and the trial
court failed to explain to Petitioner that entering a guilty plea would waive his right
to the privilege against self-incrimination; (6) the State violated double jeopardy by
objecting to allowing Petitioner to withdraw his guilty plea to the aggravated
assault and firearm offenses; (7) Petitioner’s guilty pleas were invalid because the
State failed to disclose exculpatory evidence; (8) the prosecution committed
misconduct by suppressing and destroying exculpatory evidence; and (9) the
prosecution tampered with witnesses and prevented them from speaking with the
defense.

2

Case l:19-cv-03410-JPB Document 26 Filed 04/13/20 Page 3 of 12

On October 16, 2019, the Magistrate Judge issued her Final Report and
Recommendation. [Doc.18]. The Magistrate Judge recommended denying
Petitioner’s Petition for Writ of Habeas Corpus and dismissing the case. After the
Magistrate Judge issued her recommendation, Petitioner moved to amend his
complaint a second time. [Doc. 23].
ANALYSIS OF THE REPORT AND RECOMMENDATION
A district judge has broad discretion to accept, reject or modify a magistrate
judge’s proposed findings and recommendations. United States v. Raddatz, 447
U.S. 667, 680 (1980). Pursuant to 28 U.S.C. § 636(b)(1), the Court reviews any
portion of the Report and Recommendation that is the subject of a proper objection
on a de novo basis and any non-objected-to portion under a “clearly erroneous”
standard. Notably, a party objecting to a recommendation “must specifically
identify those findings objected to. Frivolous, conclusive, or general objections
need not be considered by the district court.” Marsden v, Moore, 847 F.2d 1536,
1548 (11th Cir. 1988). It is reasonable to place this burden on the objecting party
because “[t]his rule facilitates the opportunity for district judges to spend more
time on matters actually contested and produces a result compatible with the
purposes of the Magistrates Act.” United States v. Schultz. 565 F.3d 1353, 1361
(11th Cir. 2009).

3

Case l:19-cv-03410-JPB Document 26 Filed 04/13/20 Page 4 of 12

Plaintiff timely objected to the Report and Recommendation on November
14, 2019 [Doc. 23]. In his objections, Petitioner mostly reargues his claims, and
this Court disagrees with his contention that the Magistrate Judge erred. This
Court will address Petitioner’s less frivolous arguments, and in order to do so,
some background is necessary. Briefly summarizing the facts of Petitioner’s
crimes,1 Shunea Allen, Patrice Lassiter and Monique Brown, who were college
students in Atlanta, shared an apartment in East Point. Petitioner dated Ms. Allen
and was also staying at the apartment. The night before the crimes, Petitioner
accused Ms. Allen of cheating on him and the couple argued. The next morning,
Petitioner resumed the argument and ultimately produced a gun and shot Ms. Allen
in the face. Ms. Allen survived but pretended to be dead. Petitioner then shot and
killed Ms. Lassiter and Ms. Brown and left the apartment. Ms. Allen positively
identified Petitioner as did an East Point fire department employee who saw
Petitioner leaving the apartment after the murders. The question of Petitioner’s
guilt is not at issue.
Also summarizing the rather protracted procedural history of the case, a
more complete version of which appears in the Report and Recommendation [Doc.

A more complete description is found in the transcript of Petitioner’s plea hearing.
[Doc. 14-8 at 305-07],

4

Case l:19-cv-03410-JPB Document 26 Filed 04/13/20 Page 5 of 12

18 at 1-6, 19-20], prosecutors initially filed a notice of their intent to seek the death
penalty. The prosecutors, however, withdrew the notice of intent and permitted
Petitioner to plead guilty to the murders, the aggravated assault of Ms. Allen and
possessing a firearm as a convicted felon. After his guilty pleas and sentencing,
Petitioner appealed, and the Georgia Supreme Court generally affirmed but
remanded the case to the trial court for resentencing because the judge failed to
find the existence of aggravating factors as required by O.C.G.A. § 17-10-32.1
(since repealed), before imposing Petitioner’s life-without-parole sentences. Pierce
v. State. 717 S.E.2d 202, 205 (Ga. 2011).
When the trial judge convened what was supposed to be the resentencing
hearing, [see, generally, Doc. 14-9 at ECF pp. 62-78], Petitioner’s trial counsel at
the time, August Siemon, informed the trial judge that he and Petitioner had a
conflict because Petitioner was insisting on a course of action (withdrawing his
guilty pleas) that Siemon could not, in good conscience, pursue. The trial judge
permitted Siemon to withdraw from his representation based on that conflict and
then granted Petitioner’s pro se motion to withdraw his guilty pleas to the two
murders (but not the aggravated assault and firearms charges which were not
subject to the remand).

5

Case l:19-cv-03410-JPB Document 26 Filed 04/13/20 Page 6 of 12

Thereafter, the prosecution reasserted its intent to seek the death penalty, and
new counsel, Jerilyn Bell, was appointed to represent Petitioner. Bell immediately
realized that the trial court had violated Petitioner’s Sixth Amendment rights in
granting the pro se motion to withdraw the guilty plea because the judge failed to
give the warnings required by Faretta v, California. 422 U.S. 806, 835 (1975),
before permitting Petitioner to represent himself. She ultimately reached a deal
with Petitioner in which he agreed to let her file the motion to vacate the order
allowing Petitioner to withdraw his plea in exchange for her pursuing a motion
seeking dismissal because his continued prosecution violated his double jeopardy
rights. Petitioner’s case was transferred to a different judge, and that judge vacated
the motion allowing Petitioner to withdraw his guilty plea, denied the double
jeopardy motion and then resentenced Petitioner to two consecutive terms of life
without parole after making the requisite findings of statutory aggravating factors.
[Doc. 14-10 ECFpp. 54-127].
As is evident from a review of the transcript from Petitioner’s state habeas
corpus proceeding, [Doc. 14-6], as well as Petitioner’s pleadings in this action,
throughout this process Petitioner has believed and now strongly contends that he
had a viable argument that he was guilty of voluntary manslaughter (rather than
malice murder) of Ms. Lassiter and Ms. Brown. As both Siemon and, later, Bell

6

Case l:19-cv-03410-JPB Document 26 Filed 04/13/20 Page 7 of 12

explained to Petitioner, because Ms. Lassiter and Ms. Brown were not a part of the
argument between Petitioner and his girlfriend, Ms. Allen, there was no chance
that a jury would find Petitioner guilty of voluntary manslaughter rather than
murder.
Petitioner’s voluntary manslaughter argument relates to his contentions that
his counsel failed to properly research the evidence and discovery related to his
case as well as his argument that the prosecution withheld Brady material.
According to Petitioner, Ms. Allen told state investigators that Petitioner had
exhibited paranoid behavior and other suspected mental disorders. Petitioner
contends that prosecutors withheld evidence of that statement and that his counsel
failed to talk to other witnesses who would have corroborated his claim that he
suffered from a mental disorder, which would have purportedly strengthened his
voluntary manslaughter argument. However, both Siemon and Bell were aware of
Ms. Allen’s statement regarding Petitioner’s paranoia, see Parker v. Allen, 565
F.3d 1258, 1277 (11th Cir. 2009) (noting that there is no suppression of evidence
under Brady “if the defendant knew of the [exculpatory] information or had equal
access to obtaining it”), and they knew of other witnesses who would testify that
Petitioner suffered from mental dysfunction. It is also clear that, contrary to his
contentions otherwise, Petitioner’s mental state was not sufficiently serious to raise

7

Case l:19-cv-03410-JPB Document 26 Filed 04/13/20 Page 8 of 12

a viable defense to the murders that he committed. [Doc. 14-6 at ECF p. 62 (trial
counsel testifying that the mental evaluation of Petitioner performed after his arrest
did not uncover a significant mental disorder)]. At most, Petitioner’s mental issues
presented an issue that trial counsel could have used in mitigation at sentencing at
the conclusion of a death penalty trial. Accordingly, this Court agrees with the
Magistrate Judge that the state habeas corpus court’s determinations that: (1)
Petitioner’s trial counsels were not ineffective; and (2) Petitioner failed to
demonstrate that prosecutors withheld Brady material because trial counsels were
aware of the statements that were supposedly suppressed. Based on this Court’s
de novo review of the record, it is equally clear that: (1) Petitioner is not entitled
to relief with respect to his Ground 4 (claiming that the trial court erred in granting
defense counsel’s motion to vacate Petitioner’s withdrawn guilty pleas because the
motion was filed outside the term of court) because that claim does not raise a
constitutional violation and is thus not cognizable under § 2254; (2) the record
clearly demonstrates that the trial court explained to Petitioner that entering a
guilty plea would waive his right to the privilege against self-incrimination, [Doc.
14-8 at ECF p. 302], and Petitioner is not entitled to relief with respect to his
Ground 5; (3) Petitioner’s Ground 6 claim of a double jeopardy violation is
unavailing because, as noted by the Georgia Supreme Court, Pierce. 755 S.E.2d at

8

Case l:19-cv-03410-JPB Document 26 Filed 04/13/20 Page 9 of 12

733, Petitioner’s convictions were never overturned; and (4) Petitioner’s Grounds 7
and 8 are procedurally barred.
With respect to Petitioner’s Ground 3, in which he argues that his rights
were violated in connection with the trial judge’s finding of statutory aggravating
circumstances in order to sentence him to life without parole, this Court agrees
with the Magistrate Judge’s determination that Petitioner’s guilty plea had the
effect of waiving such a challenge to his sentence. In Blakely v. Washington, 542
U.S. 296 (2004), the Supreme Court held that a trial judge could not enhance a
sentence beyond a statutory maximum2 based on findings about the defendant or
his crimes. Rather, such findings must be made by a jury. However, a claim under
Blakely can be waived in a plea agreement, United States v. Rubbo, 396 F.3d
1330, 1335 (11th Cir. 2005), and it is undisputed that in his plea agreement with
prosecutors, Petitioner agreed to accept sentences of life-without-parole in
exchange for the prosecution’s withdrawal of its notice of intent to seek the death

2 Given the Georgia statutes applicable to Petitioner’s sentence, it is debatable that the
trial court imposed a sentence that was beyond the statutory maximum. Compare
O.C.G.A. § 16-5-1 (1999) (person convicted of malice or felony murder “shall be
punished by death or by imprisonment for life”) with O.C.G.A. § 17-10-32.1(b) (if
district attorney had given notice of intention to seek death penalty, and defendant
subsequently pleads guilty, “the judge may sentence the defendant to death or life without
parole ... if the judge finds beyond a reasonable doubt the existence of at least one
statutory aggravating circumstance”).

9

Case l:19-cv-03410-JPB Document 26 Filed 04/13/20 Page 10 of 12

penalty. [Doc. 14-10 at 113, 115]. Accordingly, this Court concludes that
Petitioner has effectively waived his Blakely claim.
In summary, having carefully reviewed the record, this Court now holds that
the Magistrate Judge’s findings and conclusions are correct.
PETITIONER’S SECOND MOTION TO AMEND
Federal Rule of Civil Procedure 15, regarding the amendment of pleadings,
applies to § 2254 petitions. See Mavle v. Felix. 545 U.S. 644, 655 (2005).
Pursuant to Rule 15(a)(1):
A party may amend [his] pleading once as a matter of course within:
(A) 21 days after serving it, or (B) if the pleading is one to which a
responsive pleading is required, 21 days after service of a responsive
pleading or 21 days after service of a motion under Rule 12(b), (e), or
(f), whichever is earlier.
Petitioner’s motion to amend was filed more than twenty-one days after
Respondent’s answer and response to the § 2254 petition, and he is thus not
entitled to amend his petition as a matter of right. When a party is not entitled to
amend as a matter right under Rule 15(a)(1), then that “party may amend its
pleading only with the opposing party’s written consent or the court’s leave.” Fed.
R. Civ. P. 15(a)(2). Generally, leave to amend under Rule 15(a)(2) is given freely.
Saewitz v. Lexington Ins. Co.. 133 F. App’x 695, 699 (11th Cir. 2005). However,
this Court may deny leave to amend “in the exercise of its inherent power to

10

Case l:19-cv-03410-JPB Document 26 Filed 04/13/20 Page 11 of 12

manage the conduct of litigation before it.” Reese v. Herbert, 527 F.3d 1253, 1263
(11th Cir. 2008). “In making this determination, a court should consider whether
there has been undue delay in filing, bad faith or dilatory motives, prejudice to the
opposing parties, and the futility of the amendment.” Saewitz, 133 F. App’x. at
699.
In his proposed amendment, Petitioner seeks to add claims that his trial
counsel was ineffective for failing to seek to disqualify the Fulton County District
Attorney because prosecutors suppressed Brady material.1 As noted in the
discussion above, however, this Court has concluded that Petitioner has failed to
demonstrate that the state withheld Brady material. Accordingly, this Court
concludes that Petitioner’s proposed amendment is futile.
CONCLUSION
After reviewing the entirety of the Final Report and Recommendation and
considering Plaintiffs objections, the Final Report and Recommendation is
ADOPTED as the order of this Court and the petition is DENIED. Petitioner’s

In the opening sentences of his proposed amendment, Petitioner also mentions a claim
that trial counsel was ineffective for failing to file a motion pursuant to McCleskv v.
Kemp. 481 U.S. 279 (1987) and Rower v. State. 264 Ga. 329 (1994). Petitioner further
states that the death penalty was discriminatorily sought and applied. However, Plaintiff
does not further discuss or provide arguments in support of these claims.

11

Case l:19-cv-03410-JPB Document 26 Filed 04/13/20 Page 12 of 12

Second Motion to Amend [Doc. 20] is also DENIED. The Clerk is DIRECTED to
close this action.
This Court further agrees with the Magistrate Judge that Petitioner has failed
to raise any claim of arguable merit, and therefore a Certificate of Appealability is
DENIED pursuant to 28 U.S.C. § 2253(c)(2).
SO ORDERED this 13th day of April, 2020.

J.(E/BOULEE
United States District Judge

12

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page l ot 29

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
JASON PIERCE,
Petitioner,

PRISONER HABEAS CORPUS
28 U.S.C. § 2254

v.
NATHAN BROOKS, Warden,
Respondent.

CIVIL ACTION NO.
1:19-CV-3410-JPB-LTW

FINAL REPORT AND RECOMMENDATION
Petitioner Jason Pierce has filed this pro se 28 U.S.C. § 2254 petition to
challenge his January 4, 2013 convictions in the Superior Court of Fulton County .
This matter is currently before the Court on the petition (Doc. 1), as amended (Doc.
8), the answer-response (Doc. 12), and petitioner’s reply (Doc. 15) and motions
requesting discovery and an evidentiary hearing (Doc. 16) and to expand the record
(Doc. 17). For the reasons that follow, petitioner’s motions [16; 17] are DENIED,
and the undersigned RECOMMENDS that the petition be DENIED.
I.

Procedural History
A Fulton County grand jury indicted petitioner “on September 28, 1999, for

the murders of Patrice Lassiter and Monique Brown and the aggravated assault of
Shunae Allen, as well as other offenses.” Pierce v. State, 717 S.E.2d 202,203 (Ga.
2011). See also (Doc. 14-7 at 184-88.) On August 7, 2000, the State filed a notice

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 2 of 29

to seek the death penalty, specifying certain statutory aggravating factors. (Doc.
14-7 at 190.) On December 17,2003, petitioner entered a negotiated guilty plea to
the two murders, the aggravated assault, and possession of a firearm by a convicted
felon; and, on January 14, 2004, the trial court sentenced petitioner to consecutive
terms of life imprisonment without parole for the murders, twenty years
consecutive for aggravated assault, and five years consecutive for the firearm count.
{Id, at 12-15, 184-88.) Attorneys Derek Jones and August Siemon represented
petitioner at the time of his guilty plea and sentencing. {Id.)
The prosecutor summarized the factual basis for petitioner’s plea as follows:
The victims, Patrice Lassiter and Monique Brown, the two
young ladies that were killed, and the surviving victim, Shunea Allean,
had all grown up in the Boston area and had known [petitioner] for a
number of years. . . . [T]hey’d all gone to high school together and
had been friends while they were in high school. The surviving victim,
Shunea Allen, and [petitioner] had a relationship of
boyfriend/girlfriend. They were seeing each other during this time
period.
... [T]he night before the murders took place[,]... Ms. Lassiter, Ms.
Brown, Ms. Allen, [and petitioner] had gone to the movie . . . [and]
returned to [an] apartment ... in East Point[,] . . . and, apparently
Shunae Allen and [petitioner] got into an argument or a discussion....
[Petitioner] believed that Ms. Allen was perhaps seeing someone else.
They did have an argument that night. And according to Ms. Allen,
the surviving witness, [petitioner] slept on the sofa that night and not
in Ms. Allen’s bedroom.

2

Case l:19-cv-034l0-JPB Document 18 Filed 10/16/19 Page 3 of 29

The next morning as Ms. Allen and Ms. Brown and Ms. Lassiter
were getting ready to start the day . . . Ms. Lassiter and Ms. Brown
and Ms. Allen were all students here in Atlanta going to Clark-Atlanta
University and Atlanta Metropolitan College - - they were getting
ready to start the day. And according to Ms. Allen, [petitioner] came
into her bedroom, again in an argumentative manner about her seeing
someone else, and produced a gun and shot Ms. Allen in the face.
Ms. Allen fell to the floor, . . . [petitioner] thought that Ms.
Allen was dead. She fell to the floor and acted like she was dead. As
petitioner] left her room . . . she locked her bedroom door. And as
petitioner] went out into the hallway - - Ms. Lassiter and Ms. Brown
lad heard the gunshot - - apparently they came out into the hallway.
At that time [petitioner] shot Ms. Lassiter. She was shot in the
forehead and in the right hand as if she’d put her hand up to protect
herself as she was shot in the head. And Ms. Brown was shot in the
head also ...
[Petitioner] then left the apartment. Ms. Allen was able to dial
911. And as [petitioner] was leaving the apartment, he was observed
by EMT personnel from the East Point Fire Department who were
coming into the complex, he was observed leaving the area, and was
later identified by one of the EMT’s as the person they had seen
leaving the area. Ms. Allen, of course, the surviving witness, was able
to give the detectives in East Point a detailed statement about what
had happened.
(Doc. 14-8 at 305-07.) Defense counsel confirmed that those were the facts as the
defense understood them. (Id. at 308.)
Petitioner filed the following pro se motions between January 19,2007, and
October 29, 2007: a motion for appointment of counsel, a motion to vacate a void
and illegal sentence, and a renewed motion for appointment of counsel. (Doc. 143

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 4 of 29

7 at 82, 90-92, 97-100.) Petitioner also filed a pro se motion for an out-of-of time
appeal on January 11, 2008, which the trial court summarily denied on February
28,2008. (Id. at 101-14,126.)
On January 25, 2010, petitioner filed a pro se motion to set aside the
February 28, 2008 order. (Id. at 139-43.) On February 3, 2011, the trial court
dismissed the motions for appointment of counsel and denied petitioner’s motions
to vacate a void and illegal sentence and to set aside the February 28, 2008 order.
(Id. at 156-58.)
On February 16, 2011, petitioner filed a pro se appeal (id. at 175-76), and
argued that the trial court erred in denying: him counsel to prosecute the motions
for out-of-time appeal and to vacate a void and illegal sentence; his motion to set
aside the order denying him an out-of-time appeal; and his motion to vacate a void
and illegal sentence because the court did not make a specific finding of a statutory
aggravating circumstance beyond a reasonable doubt before sentencing him to life
without parole. Pierce, 111 S.E.2d at 203-05.

The Georgia Supreme Court

affirmed the denial of counsel; vacated the denial of petitioner’s motion to set aside
the February 28, 2008 order and remanded for the trial court to determine whether
petitioner ever received notice of that order; and reversed the denial of petitioner’s
motion to vacate a void and illegal sentence with direction that the life without
4

Case 1:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 5 of 29

parole sentences be vacated but that they may be reimposed if the trial court finds
at lease one aggravating circumstance during resentencing. Id.
“On remand, and while still represented by counsel, [petitioner] moved to
withdraw his guilty pleas as to all charges.” Pierce v. State, 755 S.E.2d 732, 733
(Ga. 2014). The trial court granted the motion with regard to the two murder counts
because those sentences had been vacated on appeal but denied the motion as to
the remaining counts because those convictions and sentences were affirmed on
appeal and petitioner had no statutory rights to withdraw those pleas. Id.
On September 24, 2012, the trial court allowed attorneys Simon and Jones
to withdraw after Jerilyn Bell and Gladys Pollard filed appearances to serve as
petitioner’s counsel. (Doc. 14-12 at 31.) Petitioner, through new counsel, then
“filed a motion for plea in bar based on double jeopardy seeking to preclude the
State from continuing its prosecution of the charges for whi ch [his] pleas had been
withdrawn.” Pierce, 755 S.E,2d at 733. After the State “again noticed its intent to
seek the death penalty,” petitioner moved “to vacate the trial court’s order allowing
him to withdraw his guilty pleas.” Id. Following a hearing, the trial court denied
petitioner’s motion for plea in bar but granted his motion to vacate the order
allowing him to withdraw his guilty pleas. Id. On January 3,2013, the trial court
resentenced petitioner on the remanded murder convictions to consecutive terms of
5

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 6 of 29

life without parole, having found the existence ofthe requisite aggravating statutory
circumstances. (Doc. 14-10 at 125-28; Doc. 14-12 at 302-04.)
Petitioner filed a pro se notice of appeal, challenging only the order denying
his motion for plea in bar. (Doc. 14-10 at 186.) On March 3, 2014, the Georgia
Supreme Court affirmed the trial court’s decision, concluding that there was no
second prosecution because petitioner’s own motion vacated the order authorizing
the withdrawal of his guilty pleas.1 Pierce, 755 S.E.2d at 733.
On April 9, 2014, petitioner filed a pro se habeas corpus petition in the
Superior Court of Telfair County, raising the following grounds for relief: (1) trial
counsel provided him ineffective assistance during the plea proceedings by failing
to conduct pretrial investigation or review discovery that could have shown
voluntary manslaughter; (2) trial counsel was also ineffective for failing to fully
investigate the facts and law concerning double jeopardy before advising petitioner
to enter a guilty plea and for filing a motion to vacate the order allowing petitioner
to withdraw his guilty plea; (3) trial counsel operated under a conflict of interest
when counsel filed and argued a Faretta v. California, 422 U.S. 806 (1975) claim,

1 Petitioner also raised ineffective assistance of counsel claims on appeal, but
the Georgia Supreme Court ruled that such claims “must be pursued in an action
for habeas corpus.” Pierce, 755 S.E.2d at 734.
6

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 7 of 29

which caused the trial court to rule that petitioner’s withdrawal of his guilty plea
was void; (4) trial counsel was ineffective for failing to advise petitioner that
entering a guilty plea would waive his right to the privilege against selfincrimination, and the trial court erred by reinstating petitioner’s murder sentences
outside the term of court; and (5) the prosecution failed to provide defense counsel
a private investigative report that contained exculpatory evidence, and the trial
court erred by finding aggravating circumstances without a jury determination.
(Docs. 14-1; 14-2.) Following an evidentiary hearing on November 24, 2015, at
which trial counsel testified, the state habeas court entered a written order denying
the petition.

(Doc. 14-2.)

The Georgia Supreme Court denied petitioner a

certificate of probable cause to appeal that ruling on August 27,2018 (Doc. 14-4),
then issued its remittitur on September 13,2018 (Doc. 14-5).
In this § 2254 petition, as amended, petitioner argues that: (1) counsel
provided him ineffective assistance by failing to (a) review discovery,
(b) investigate a viable mitigation defense, (c) investigate a Brady v. Maryland, 373
U.S. 83 (1963) violation, and (d) interview witnesses before advising petitioner to
not withdraw his guilty plea and agree to be resentenced; (2) counsel was also
ineffective for failing to fully explain the Faretta motion to reinstate the guilty
pleas after having legally withdrawn them, which resulted in petitioner’s
7

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 8 of 29

unknowing and involuntary agreement to not withdraw the pleas and be
resentenced; (3) the trial court violated petitioner’s constitutional rights when it
found the necessary aggravating circumstances to sentence him to life without
parole without notifying him of his right to have a jury make that determination;
(4) the trial court erred in granting defense counsel’s motion to vacate petitioner’s
withdrawn guilty pleas and in reinstating his murder sentences where the motion to
vacate was filed outside the term of court; (5) both counsel and the trial court failed
to explain to petitioner that entering a guilty plea would waive his right to the
privilege against self-incrimination; (6) the State violated double jeopardy by
objecting to allowing petitioner to withdraw his guilty plea to the aggravated assault
and firearm offenses; (7) petitioner’s guilty pleas were invalid because the State
failed to disclose exculpatory evidence; (8) the prosecution committed misconduct
by suppressing and destroying exculpatory evidence; and (9) the prosecution
tampered with witnesses and prevented the defense from speaking with them. (Doc.
1 at 6-7,9-12,14-15,17-18,32-94; Doc. 8.) Respondent argues that grounds (l)(c),
(l)(d), (7), (8), and (9) are new and procedurally defaulted, ground (3) was waived
by petitioner’s guilty plea, ground (4) does not state a federal claim for relief, and
the state courts’ rejection of his remaining grounds warrants deference. (Doc. 121 at 7-35.) Petitioner replies, reasserting the merits of his grounds for relief. (Doc.
8

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 9 of 29

15.) Petitioner also seeks discoveiy, an evidentiary hearing, and to expand the
record. (Docs. 16; 17.)
II.

Discussion
A.

28 U.S.C. $ 2254 Standards

Under 28 U.S.C. § 2254, a federal court may issue a writ of habeas corpus
on behalf of a person being held in custody pursuant to a judgment of a state court
if that person is held in violation of his rights under federal law. 28 U.S.C.
§ 2254(a). In general, a state prisoner who seeks federal habeas corpus relief may
not obtain that relief unless he first exhausts his available remedies in state court or
shows that a state remedial process is unavailable or ineffective. Id. § 2254(b)(1).
A federal court may not grant habeas corpus relief for claims previously
adjudicated on the merits by a state court unless the state court adjudication resulted
in a decision that (1) “was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United
States”; or (2) “was based on an unreasonable determination of the facts in light of
the evidence presented in the State court proceeding.” Id. § 2254(d). “This is a
difficult to meet and highly deferential standard for evaluating state-court rulings,
which demands that state-court decisions be given the benefit of the doubt.” Cullen
v. Pinholster, 563 U.S. 170, 181 (2011) (citations and quotation marks omitted).
9

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 10 of 29

In applying § 2254(d), a federal court first determines the “clearly
established federal law” based on “the holdings, as opposed to the dicta, of [the
Supreme Court’s] decisions as of the time of the relevant state-court decision.”
Williams v. Taylor, 529 U.S. 362, 412 (2000). The court then determines whether
the state court decision is “contrary to” that clearly established federal law, i.e.,
whether the state court “applies a rule that contradicts the governing law set forth”
in Supreme Court cases, or “confronts a set of facts that are materially
indistinguishable” from a Supreme Court decision “and nevertheless arrives at a
[different] result.” Id. at 405-06.
If the federal court determines that the state court decision is not contrary to
clearly established federal law, it then determines whether the decision is an
“unreasonable application” of that law, i.e., whether “the state court identifies the
correct governing legal principle” from the Supreme Court’s decisions “but
unreasonably applies that principle to the facts of the prisoner’s case.” Id. at 413.
A federal court may not grant habeas relief “simply because that court concludes
in its independent judgment that the relevant state-court decision applied clearly
established federal law erroneously or incorrectly. Rather, that application must
also be [objectively] unreasonable.” Id. at 409,411; see Harrington v. Richter, 562
U.S. 86, 101 (2011) (“For purposes of § 2254(d)(1), an unreasonable application
10

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 11 of 29

of federal law is different from an incorrect application of federal law.” (quotations
omitted)). In short, when a state court applies clearly established federal law to a
claim, federal habeas relief is not available unless the petitioner shows that the state
court’s ruling “was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility for
fairminded disagreement.” Harrington, 562 U.S. at 103.
Additionally, the state court’s determinations of factual issues are presumed
correct. 28 U.S.C. § 2254(e)(1). A petitioner can overcome this presumption only
by presenting “clear and convincing evidence” that the state court’s findings of fact
were erroneous. Id.
The undersigned has reviewed the pleadings and exhibits and finds that the
record contains sufficient facts upon which the issues may be resolved.

As

petitioner has not made the showing required by 28 U.S.C. § 2254(e)(2) to entitle
him to an evidentiary hearing, the undersigned finds that no federal evidentiary
hearing is warranted, and the case is now ready for disposition. Accordingly,
petitioner’s motions requesting discovery and an evidentiary hearing [16] and to
expand the record [17] are DENIED.

11

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 12 of 29

B.

Grounds (TYak (TYbk and flYdl: Counsel’s alleged failure to review
discovery, investigate a mitigation defense, and interview witnesses
Petitioner argued in ground one of his state habeas petition that trial counsel

provided him ineffective assistance during the plea proceedings by failing to
conduct pretrial investigation or review discovery that could have shown voluntary
manslaughter.

In this Court’s review of the state habeas court’s denial of

petitioner’s ineffective assistance of counsel claims, “the relevant clearly
established law [for purposes of 28 U.S.C. § 2254(d)] derives from Strickland v.
Washington, 466 U.S. 668 (1984), which provides the standard for inadequate
assistance of counsel under the Sixth Amendment.” Premo v. Moore, 562 U.S. 115,
118 (2011). “The pivotal question” before this Court “is whether the state court’s
application of the Strickland standard was unreasonable.” Harrington, 562 U.S. at
101. “This is different from asking whether defense counsel’s performance fell
below Strickland’s standard.” Id.
The Strickland analysis is two-pronged, but a court need not address both
prongs “if the defendant makes an insufficient showing on one.” Strickland, 466
U.S. at 697. First, a convicted defendant asserting a claim of ineffective assistance
of counsel must show that “in light of all the circumstances, the identified acts or
omissions [of counsel] were outside the wide range of professionally competent
12

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 13 of 29

assistance.” Id. at 690. A court analyzing Strickland’s first prong must be “highly
deferential” and must “indulge a strong presumption that counsel’s conduct falls
within the wide range of reasonable professional assistance.” Id. at 689; Atkins v.
Singletary, 965 F.2d 952, 958 (11th Cir. 1992) (“We also should always presume
i

strongly that counsel’s performance was reasonable and adequate.”); see also
Harrington, 562 U.S. at 105 (‘“Surmounting Strickland’s high bar is never an easy
task.’” (quoting Padilla v. Kentucky, 559 U.S. 356, 371 (2010))).
In order to meet the second prong of Strickland, a petitioner must
demonstrate that counsel’s unreasonable acts or omissions prejudiced him. “An
error by counsel, even ifprofessionally unreasonable, does not warrant setting aside
the judgment of a criminal proceeding if the error had no effect on the judgment.”
Strickland, 466 U.S. at 691. In order to demonstrate prejudice, a petitioner “must
show that there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different.” Id. at 694. “A
reasonable probability is a probability sufficient to undermine confidence in the
outcome.” Id.
To succeed on a claim that a guilty plea was obtained as the result of
ineffective assistance of counsel, a petitioner must show that the advice he received
from counsel “fell below an objective standard of reasonableness” and “that there
13

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 14 of 29

is a reasonable probability that, but for counsel’s errors, he would not have pleaded
guilty and would have insisted on going to trial.” Hill v. Lockhart, 474 U.S. 52,57,
59 (1985) (citations omitted). Petitioner has the burden of affirmatively proving
prejudice. Gilreath v. Head, 234 F.3d 547, 551 (11th Cir. 2000). Additionally,
the representations of the defendant, his lawyer, and the prosecutor at
[a guilty plea] hearing, as well as any findings made by the judge
accepting the plea, constitute a formidable barrier in any subsequent
collateral proceedings. Solemn declarations in open court carry a
strong presumption of verity. The subsequent presentation of
conclusory allegations unsupported by specifics is subject to summary
dismissal, as are contentions that in the face of the record are wholly
incredible.
Blackledge v. Allison, 431 U.S. 63,73-74 (1977).
When this deferential Strickland standard is “combined with the extra layer
of deference that § 2254 provides, the result is double deference and the question
becomes whether ‘there is any reasonable argument that counsel satisfied
Strickland’s deferential standard.’” Johnson v. Sec y, DOC, 643 F.3d 907,910-11
(11th Cir. 2011) (quoting Harrington, 562 U.S. at 105). “Double deference is
doubly difficult for a petitioner to overcome, and it will be a rare case in which an
ineffective assistance of counsel claim that was denied on the merits in state court
is found to merit relief in a federal habeas proceeding.” Id. at 911.

14

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 15 of 29

The state habeas made the following pertinent findings of fact, which are
supported by the record as indicated:
. . . Trial counsel[, August Siemon], testified that in preparation for
Petitioner’s case, he reviewed all discovery with his co-counsel and
appointed investigator. [(Doc. 14-6 at 57)]. Trial counsel testified
that he made several trips to Boston, interviewed witnesses,
interviewed teachers at Petitioner’s high school, and spoke with
Petitioner’s family. [(Id.)]. Trial counsel testified that he was able to
speak with the Brookline police officers regarding a drive by shooting
fiat Petitioner was allegedly involved in. [(Id.)]. Trial counsel
testified that he was also able to speak with the living victim, Shunae
Allen, in the case as well. [(Id.)]. Trial counsel testified that Shunae
Allen was an articulate and intelligent college student. [(Id. at 60)].
Trial counsel testified that Shunae Allen had known Petitioner for
years and identified Petitioner as the shooter. [(M)].
Trial counsel testified that he did not believe he could make a
meritorious argument that Petitioner's] actions constituted voluntary
manslaughter as the evidence in the case showed that only Shunae
Allen was involved in the argument with Petitioner and that the two
victims killed were not a part of any dispute with Petitioner in any way.
[{Id. at 58)]. Trial counsel testified that he discussed with Petitioner
numerous times about why a claim of voluntary manslaughter was not
a viable argument based on the facts of the case. [(M)]. Trial counsel
testified that because he knew that he was going to need to discuss the
voluntary manslaughter claim with Petitioner, he reviewed the
statutory and case law relating to voluntaiy manslaughter, and
reviewed the facts of the case “with an eye towards [a] voluntary
manslaughter defense.” [(Id. at 58-59)]. Even so, trial counsel did not
believe that voluntary manslaughter would apply to the two women
Petitioner killed, and even if it could be applied, it was trial counsel’s
opinion that no jury would have convicted Petitioner of voluntary
manslaughter when there was an option to convict Petitioner of
murder for the killing of the two women. [(Id. at 59)].
15

Case l:l9-cv-03410-JPB Document 18 Filed 10/16/19 Page 16 of 29

(Doc. 14-2 at 5-6.) After correctly setting forth the Strickland standard, the state
habeas court found that petitioner had failed to show deficient performance by
counsel because the record revealed that “trial counsel reviewed discovery,
interviewed witnesses, and even travelled to Boston in order to investigate
Petitioner’s case” and that counsel also “reviewed the law and facts of the case as
they related to a claim of voluntary manslaughter but found no viable claim that he
could make for a charge of voluntary manslaughter.” (Id. at 6-7.)
Petitioner has not met his burden to show that the state habeas court’s
decision was based on an unreasonable determination of the facts or that its
rejection of petitioner’s claim that trial counsel failed to adequately investigate the
case, review discovery, and interview witness before advising him to plead guilty
was contrary to, or involved an unreasonable application of, Strickland. Argo v.
Sec’y, Dep7o/Corr., 465 F. App’x 871,874-75 (11th Cir. 2012) (per curiam) (“We
presume the state court’s determination of the facts is correct, and the petitioner
bears the burden of rebutting this presumption by clear and convincing evidence.”)
(citing 28 U.S.C. § 2254(e)(1)); Pair v. Cummins, 373 F. App’x 979,981 (11th Cir.
2010) (per curiam) (“[T]he habeas petitioner bears the burden ‘to show that the
state court applied [the applicable clearly established federal law] to the facts of the
case in an objectively unreasonable manner.’”). The state habeas court reasonably
16

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 16 of 29

(Doc. 14-2 at 5-6.) After correctly setting forth the Strickland standard, the state
habeas court found that petitioner had failed to show deficient performance by
counsel because the record revealed that “trial counsel reviewed discovery,
interviewed witnesses, and even travelled to Boston in order to investigate
Petitioner’s case” and that counsel also “reviewed the law and facts of the case as
they related to a claim of voluntary manslaughter but found no viable claim that he
could make for a charge of voluntary manslaughter.” (Id. at 6-7.)
Petitioner has not met his burden to show that the state habeas court’s
decision was based on an unreasonable determination of the facts or that its
rejection of petitioner’s claim that trial counsel failed to adequately investigate the
case, review discovery, and interview witness before advising him to plead guilty
was contrary to, or involved an unreasonable application of, Strickland. Argo v.
Sec y, Dep ’tofCorr., 465 F. App’x 871,874-75 (11th Cir. 2012) (per curiam) (“We
presume the state court’s determination of the facts is correct, and the petitioner
bears the burden of rebutting this presumption by clear and convincing evidence.”)
(citing 28 U.S.C. § 2254(e)(1)); Pair v. Cummins, 373 F. App’x 979,981 (11th Cir.
2010) (per curiam) (“[T]he habeas petitioner bears the burden ‘to show that the
state court applied [the applicable clearly established federal law] to the facts of the
case in an objectively unreasonable manner.’”). The state habeas court reasonably
16

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 17 of 29

credited trial counsel’s testimony concerning his preparation for petitioner’s case
and, based thereon, reasonably concluded that trial counsel provided petitioner
constitutionally adequate assistance in investigating the case and in concluding that
a voluntary manslaughter defense was not viable. Additionally, petitioner fails to
show prejudice because he has not alleged what more counsel could have done that
would have led him to proceed to trial, rather than to plead guilty in exchange for
the State withdrawing its notice to seek the death penalty. Therefore, the state
habeas court’s rejection of grounds (l)(a), (l)(b), and (lj(d) is entitled to deference
pursuant to § 2254(d). See Harrington, 562 U.S. at 101; Williams, 529 U.S. at 40405, 412-13; Johnson, 643 F.3d at 911.
C.

Grounds (TVc) and (7): Counsel’s alleged failure to investigate, and the
State’s alleged failure to disclose, exculpatory evidence
In ground five of his state habeas petition, petitioner argued that the

prosecution failed to provide defense counsel a private investigative report that
contained exculpatory evidence. The state habeas made the following pertinent
findings of fact, which are supported by the record as indicated:
Jacilyn Bell[, who represented Petitioner after the trial court allowed him to
withdraw his guilty plea as to the murder counts,] testified that during her
representation of Petitioner she filed a Brady2 motion asking for any statements

2 Brady v. Maryland, 373 U.S. 83 (1963).
17

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 18 of 29

made by any State witness that was inconsistent with the statements that had been
previously filed. [(Doc. 14-6 at 22)]. Ms. Bell testified that there were some twenty
or thirty specific requests within the Bradv motion she filed. [(/&)]. Ms. Bell
testified that they had only reached the first state of making discovery requests, but
because the trial court ruled there was a constitutional violation and they moved
forward with sentencing, there was no need to move onto the next stage in making
discovery requests. [(Id. at 26)]. Ms. Bell testified that she would have filed more
specific Brady demands had the case continued forward to trial. [(/<£)].
(Doc. 14-2 at 17.) The state habeas court then concluded that petitioner had failed
to show deficient performance by counsel because “Ms. Bell did file discovery
motions and would have moved for further discovery had the case continued to trial”
and because petitioner had not shown “that the prosecution did fail to provide all
discovery in his case.” (Id. at 18.)
Petitioner has not met his burden to show that the state habeas court’s
decision was based on an unreasonable determination of the facts or that its
rejection of this Brady claim was contrary to, or involved an unreasonable
application of, federal law. See Argo, 465 F. App’x at 874-75; Pair, 373 F. App’x
at 981. In fact, petitioner has not shown that any exculpatory evidence actually
existed which counsel did not investigate and the prosecution failed to disclose.
Petitioner’s speculation about what further investigation might have revealed is
insufficient to show prejudice. See Johnson v. Alabama, 256 F.3d 1156,1187 (11th
Cir. 2001) (concluding that petitioner’s “speculation” that missing evidence
18

Case 1:19-CV-03410-JPB Document 18 Filed 10/16/19 Page 19 of 29

“would have been helpful” is insufficient to show that he is entitled to federal
habeas relief). Therefore, the state habeas court’s rejection of petitioner’s claim
that the prosecution withheld, and counsel failed to discover, exculpatory evidence
is entitled to deference pursuant to § 2254(d). See Harrington, 562 U.S. at 101;
Williams, 529 U.S. at 404-05,412-13; Johnson, 643 F.3d at 911.
D.

Ground Two: Counsel’s advice to not withdraw his guilty plea in order to
avoid a possible death sentence
In ground two, petitioner argues that counsel ineffectively explained why

petitioner should agree not to withdraw his guilty plea as to the murder counts. A
brief recap of the protracted procedural history relevant to this ground is necessary
here. After the trial court allowed petitioner to withdraw his guilty plea as to the
murder counts, petitioner “filed a motion for plea in bar based on double jeopardy
seeking to preclude the State from continuing its prosecution of the [murder]
charges.” Pierce, 755 S.E.2d at 733. The state then noticed its intent to seek the
death penalty, which prompted petitioner, based on counsel’s advice, to move to
vacate the order allowing him to withdraw his guilty plea. Id. After a hearing, the
trial court denied the motion for plea in bar and granted petitioner’s motion to
vacate the order allowing him to withdraw his plea. Id. Following resentencing,

19

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 20 of 29

petitioner appealed the denial of his motion for plea in bar, but the Georgia
Supreme Court affirmed the trial court’s denial of the motion. Id.
Petitioner also raised this claim in his state habeas petition. The state habeas
made the following pertinent findings of fact, which are supported by the record as
indicated:
... Ms. Bell testified that once appointed to represent petitioner, she
and her co-counsel sought to litigate the legality of the withdrawal of
Petitioner’s guilty plea due to the technical legal issues that occurred
during the April 16th hearing when Petitioner was allowed to
withdraw his guilty plea. [(Doc. 14-6 at 12)]. While researching and
investigating the legal issue, Ms. Bell testified that her office was also
investigating the facts of the case that could be used if the case had
continued to trial or for mitigation purposes should a sentencing
hearing have been held. [(Tic/.)]. Ms. Bell testified that there were a
number of individuals from her office working on Petitioner’s case
other than herself including her co-counsel Emily Gilbert, a fact
investigator, and a litigation investigator. [(Id. at 12-13)]. Ms. Bell
testified that she reviewed the prior files in Petitioner’s case,
established a contact list, spoke with witnesses, and spoke with
Petitioner’s prior counsel. [(Id. at 13)]. Ms. Bell testified that she
reviewed the discovery in Petitioner’s case and made a general Brady
demand that the State turn over any outstanding discovery that they
had yet to turn over to the defense. [(Id. at 25)].
Ms. Bell testified that the first objective in her representation of
Petitioner was to vacate the April 16, 2012 order allowing Petitioner
to withdraw his guilty plea. [(Id. at 13)]. Ms. Bell testified that it was
their position that Petitioner was not represented by counsel at the
April 16,2012 hearing due to a conflict between Petitioner and August
Siemon based on their differing opinions on how to proceed in
Petitioner’s case and what was in Petitioner’s best interest, and thus
the withdrawal of Petitioner’s guilty plea was not legally valid. [(Id.
20

Case 1:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 21 of 29

at 13-14)]. Ms. Bell testified that both she and her co-counsel
discussed the legality of the withdrawal of Petitioner’s guilty plea with
Petitioner. [{Id. at 16)]. Ms. Bell testified that they discussed with
Petitioner that the first thing they needed to do in their representation
of Petitioner was to litigate the legality of the withdrawal of
Petitioner’s guilty plea . . . [(/&)]. Ms. Bell testified that they also
filed thirty (30) or more additional motions other than the motion to
vacate the withdrawal of Petitioner’s guilty plea. [{Id.)]. Ms. Bell
testified that she also formally adopted motions that Petitioner had
filed prose. [{Id.)]. Ms. Bell then testified that the trial court reviewed
those motions in the order of how they would affect the case. [{Id.)].
Ms. Bell testified that she met with Petitioner at the jail in order
to obtain Petitioner’s consent to file the motion to vacate the order
allowing Petitioner to withdraw his guilty plea and that Petitioner did
agree to allow counsel to go forward with that motion so long as
counsel also argued his motions regarding the double jeopardy claims
that he raised [in] his pro se motions which counsel adopted. [{Id. at
35,51)]. Ms. Bell testified that the double jeopardy issues were raised,
argued, and ruled adversely to Petitioner by the trial court. [{Id. at
35)].
(Doc. 14-2 at 8-9.) The state habeas court then concluded that petitioner had failed
to show deficient performance by counsel because the record showed that petitioner
“agreed with and consented to the filing of the motion to vacate the order to allow
Petitioner to withdraw his guilty plea so long as counsel also argued the double
jeopardy issue.” {Id. at 10-12.)
Petitioner has not met his burden to show that the state habeas court’s
decision was based on an unreasonable determination of the facts or that its
rejection of his claim that counsel provided him ineffective assistance in advising
21

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 22 of 29

him not to withdraw his guilty plea was contrary to, or involved an unreasonable
application of, Strickland. See Argo, 465 F. App’x at 874-75; Pair, 373 F. App’x
at 981. Counsel discussed with petitioner at length her recommendation to move
to vacate the withdrawal of his guilty plea, and petitioner agreed with that
recommendation and consented to filing the motion to vacate. Petitioner has
simply not shown that counsel’s advice or explanation was constitutionally
deficient or that, had counsel more fully explained the motion to vacate, he would
have insisted on proceeding to trial where he faced the death penalty. Therefore,
the state habeas court’s rejection of ground two is entitled to deference pursuant to
§ 2254(d). See Harrington, 562 U.S. at 101; Williams, 529 U.S. at 404-05, 41213; Johnson, 643 F.3d at 911.
E.

Ground Three: Judicial finding of aggravating circumstances
In ground three, petitioner alleges that the trial court violated his

constitutional rights when it found the necessary aggravating circumstances to
sentence him to life without parole without notifying him of his right to have a jury
make that determination. However, petitioner’s guilty plea, which “comprehend[s]
all of the factual and legal elements necessary to sustain a binding, final judgment
of guilt and a lawful sentence,” United States v. Broce, 488 U.S. 563, 569 (1989),

22

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 23 of 29

waived this challenge to his sentence, United States v. Murray, 625 F. App’x 955,
958 (11th Cir. 2015) (per curiam).
F.

Ground Four: Timing of the reinstatement of petitioner’s murder sentences
In ground four, petitioner complains that the trial court should not have

granted defense counsel’s motion to vacate petitioner’s withdrawn guilty pleas and
reinstated his murder sentences because the motion to vacate was filed outside the
term of court.

“The habeas statute unambiguously provides that a federal court

may issue the writ to a state prisoner ‘only on the ground that he is in custody in
violation of the Constitution or laws or treaties of the United States.’” Wilson v.
Corcoran, 562 U.S. 1, 5 (2010) (per curiam) (quoting 28 U.S.C. § 2254(a)).
“[F]ederal habeas corpus relief does not lie for errors of state law.” Id. (citation
omitted). Therefore, ground four fails to state a claim for relief.
G.

Ground Five: Petitioner’s right to the privilege against self-incrimination
Next, petitioner contends that both counsel and the trial court failed to

explain to him that entering a guilty plea would waive his right to the privilege
against self-incrimination. This claim is belied by the record, which shows that the
trial court advised petitioner that, at a trial, he would “have die right to testify in
[his] own behalf, or [he] would not have to testify, that would be [his] choice” and
that he was giving up that right by pleading guilty. (Doc. 14-8 at 302-03.) Thus,
23

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 24 of 29

even if trial counsel failed to explain this right to petitioner before he pled guilty,
the alleged failure “was cured by the [trial] court.” United States v. Wilson, 245 F.
App’x 10,12 (11th Cir. 2007) (per curiam). Accordingly, petitioner is not entitled
to relief on ground five.
H.

Ground Six: Double ieonardv
Petitioner also contends that the State violated double jeopardy3 by objecting

to allowing petitioner to withdraw his guilty plea to the aggravated assault and
firearm charges. The Georgia Supreme Court found that “there was not in this case
a second prosecution,” as petitioner’s convictions were not overturned but were
vacated and later reinstated on petitioner’s own motion. Pierce, 755 S.E.2d at 733.
Once again, petitioner has not met his burden to show that the Georgia Supreme
Court’s decision was based on an unreasonable determination of the facts or that
its rejection of his double jeopardy claim was contrary to, or involved an
unreasonable application of, federal law. See Argo, 465 F. App’x at 874-75; Pair,
373 F. App’x at 981. Accordingly, the state court’s rejection of ground six is

3 The Double Jeopardy Clause provides that “[n]o person shall... be subject
for the same offence to be twice put in jeopardy of life or limb.” U.S. Const, amend.
V. The Fifth Amendment guarantee against double jeopardy is applicable to the
states through the Fourteenth Amendment. Benton v. Maryland, 395 U.S. 784, 794
(1969).
24

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 25 of 29

entitled to deference pursuant to § 2254(d), See Harrington, 562 U.S, at 101;
Williams, 529 U.S. at 404-05,412-13; Johnson, 643 F.3d at 911.
I.

Procedural default of remaining grounds
“Pursuant to the doctrine of procedural default, a state prisoner seeking

federal habeas corpus relief, who fails to raise his federal constitutional] claim in
state court, or who attempts to raise it in a manner not permitted by state procedural
rules is barred from pursuing the same claim in federal court.. . .” Alderman v.
Zant, 22 F.3d 1541, 1549 (11th Cir. 1994). Thus, a claim not previously raised in
state court is procedurally defaulted when it is clear that a state court would now
find that it is “barred by [state] law” from considering die merits of the claim.
Castille v. Peoples, 489 U.S. 346, 351 (1989).
A petitioner can overcome a procedural default by showing “cause” for the
default and resulting “prejudice” or that “a fundamental miscarriage ofjustice” will
occur if the claim is not addressed. Mincey v. Head, 206 F.3d 1106, 1135 (11th
Cir. 2000). An ineffective-assistance-of-counsel claim, if both exhausted and not
procedurally defaulted, may constitute cause. Hill v. Jones, 81 F.3d 1015, 102931 (11th Cir. 1996); Murray v. Carrier, 477 U.S. 478, 489 (1986) (“[A] claim of
ineffective assistance [must] be presented to the state courts as an independent
claim before it may be used to establish cause for a procedural default.”). If a
25

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 26 of 29

petitioner has not shown cause to excuse the procedural default, a federal court
need not consider whether he can demonstrate actual prejudice from the alleged
constitutional violation.

McCleskey v. Zant, 499 U.S. 467, 502 (1991).

A

fundamental miscarriage of justice occurs when “a constitutional violation has
probably resulted in the conviction of one who is actually innocent.” Murray, 477
U.S. at 496.
Petitioner did not present grounds (8) and (9), in which he alleges that the
prosecution suppressed and destroyed exculpatory evidence, tampered with
witnesses, and prevented the defense from speaking with those witnesses, to the
state courts. Georgia’s rule against successive habeas petitions prohibits a Georgia
court from considering claims in a second state habeas corpus petition that could
have been raised in the first habeas petition. See O.C.G.A. § 9-14-51. This rule
prevents a Georgia habeas corpus court from considering these grounds, as well as
grounds (l)(c), (l)(d), and (7) to the extent that they present issues that differ from
the issues raised in grounds one and five of petitioner’s state habeas petition.
Accordingly, these grounds are procedurally defaulted. See Ogle v. Johnson, 488
F.3d 1364, 1370-71 (11th Cir. 2007) (A claim that “could not be raised in a
successive state habeas petition ... is procedurally defaulted.”); Chambers v.
Thompson, 150 F.3d 1324, 1327 (11th Cir. 1998) (concluding “that a state habeas
26

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 27 of 29

court would hold [petitioner’s] claims to be procedurally defaulted and not decide
them on the merits, because they were not presented in his initial state habeas
petition” and “that those claims [therefore] are procedurally barred from review in
this federal habeas proceeding and exhausted.”).
Petitioner cannot rely on ineffective assistance of counsel to excuse the
procedural default because, as discussed above, petitioner’s only exhausted
ineffective assistance of counsel claims are not meritorious. See Murray, 477 U.S.
at 489; United States v. Nyhuis, 211 F.3d 1340, 1344 (11 th Cir. 2000) (only a
meritorious ineffective assistance claim “may satisfy the cause exception to a
procedural bar”). Petitioner has not alleged any other cause and resulting prejudice
or a fundamental miscarriage of justice to excuse the procedural default.
Accordingly, petitioner is not entitled to federal habeas relief with respect to
grounds (8) and (9), as well as grounds (l)(c), (l)(d), and (7) to the extent that they
present issues that differ from the issues raised in grounds one and five of
petitioner’s state habeas petition.
III.

Certificate of Appealability
Under Rule 22(b)(1) of the Federal Rules of Appellate Procedure, “the

applicant cannot take an appeal unless a circuit justice or a circuit or district judge
issues a certificate of appealability [“COA”] under 28 U.S.C. § 2253(c).” Rule 11
27

Case 1:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 28 of 29

of the Rules Governing Section 2254 Cases “[t]he district court must issue or deny
a certificate of appealability when it enters a final order adverse to the applicant.”
A COA may issue “only if the applicant has made a substantial showing of
the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). A substantial showing
of the denial of a constitutional right “includes showing that reasonable jurists
could debate whether (or, for that matter, agree that) the petition should have been
resolved in a different manner or that the issues presented were adequate to deserve
encouragement to proceed further.” Slack v. McDaniel, 529 U.S. 473, 483-84
(2000) (citations and quotation marks omitted). Where a habeas petition is denied
on procedural grounds without reaching the prisoner’s underlying constitutional
claim, “a certificate of appealability should issue only when the prisoner shows
both that jurists of reason would find it debatable whether the petition states a valid
claim of the denial of a constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling.” Jimenez
v. Quarterman, 555 U.S. 113, 118 n.3 (2009) (internal quotations marks omitted)
(citing Slack, 529 U.S. at 484).
Based on the foregoing discussion of petitioner’s grounds for relief, the
resolution of the issues presented is not debatable by jurists of reason, and a COA
is not warranted here.
28

Case l:19-cv-03410-JPB Document 18 Filed 10/16/19 Page 29 of 29

IV.

Conclusion
For the foregoing reasons, petitioner’s motions [16; 17] are DENIED, and

the undersigned RECOMMENDS that the petition, as amended, and a COA be
DENIED.
The Clerk is DIRECTED to terminate the referral to the Magistrate Judge.
SO ORDERED AND RECOMMENDED, this

ALKER
I
UNITED STATES MAGISTRATE JUDGE
T.

29

2019.

